<html>
<title> - EXAMINING THE UNDERLYING SCIENCE AND IMPACTS OF GLIDER TRUCK REGULATIONS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                    EXAMINING THE UNDERLYING SCIENCE
                AND IMPACTS OF GLIDER TRUCK REGULATIONS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON ENVIRONMENT &
                       SUBCOMMITTEE ON OVERSIGHT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2018

                               __________

                           Serial No. 115-73

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 






       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                        _________ 

               U.S. GOVERNMENT PUBLISHING OFFICE
                   
32-514 PDF             WASHINGTON : 2018             
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           CONOR LAMB, Pennsylvania
RALPH LEE ABRAHAM, Louisiana         JERRY McNERNEY, California
GARY PALMER, Alabama                 ED PERLMUTTER, Colorado
DANIEL WEBSTER, Florida              PAUL TONKO, New York
ANDY BIGGS, Arizona                  BILL FOSTER, Illinois
ROGER W. MARSHALL, Kansas            MARK TAKANO, California
NEAL P. DUNN, Florida                COLLEEN HANABUSA, Hawaii
CLAY HIGGINS, Louisiana              CHARLIE CRIST, Florida
RALPH NORMAN, South Carolina
DEBBIE LESKO, Arizona
MICHAEL CLOUD, Texas
TROY BALDERSON, Ohio
                                 ------                                

                      Subcommittee on Environment

                    HON. ANDY BIGGS, Arizona, Chair
DANA ROHRABACHER, California         SUZANNE BONAMICI, Oregon, Ranking 
BILL POSEY, Florida                      Member
MO BROOKS, Alabama                   COLLEEN HANABUSA, Hawaii
RANDY K. WEBER, Texas                CHARLIE CRIST, Florida
BRIAN BABIN, Texas                   CONOR LAMB, Pennsylvania
GARY PALMER, Alabama                 EDDIE BERNICE JOHNSON, Texas
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
DEBBIE LESKO, Arizona
LAMAR S. SMITH, Texas
                                 ------                                

                       Subcommittee on Oversight


                  RALPH LEE ABRAHAM, Louisiana, Chair
BILL POSEY, Florida                  DONALD S. BEYER, JR., Virginia, 
THOMAS MASSIE, Kentucky                  Ranking Member
ROGER W. MARSHALL, Kansas            JERRY McNERNEY, California
CLAY HIGGINS, Louisiana              ED PERLMUTTER, Colorado
RALPH NORMAN, South Carolina         EDDIE BERNICE JOHNSON, Texas
TROY BALDERSON, Ohio
LAMAR S. SMITH, Texas

                            C O N T E N T S

                           September 13, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Andy Biggs, Chairman, Subcommittee on 
  Environment, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     4
    Written Statement............................................     6

Statement by Representative Suzanne Bonamic, Ranking Member, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Statement by Representative Ralph Lee Abraham, Chairman, 
  Subcommittee on Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    12
    Written Statement............................................    14

Statement by Representative Donald S. Beyer, Jr., Ranking Member, 
  Subcommittee on Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    16
    Written Statement............................................    19

Written Statement by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    21

                               Witnesses:

Ms. Linda Tsang, Legislative Attorney, Congressional Research 
  Service
    Oral Statement...............................................    24
    Written Statement............................................    26

Mr. Collin Long, Director of Government Affairs, Owner-Operator 
  Independent Drivers Association
    Oral Statement...............................................    36
    Written Statement............................................    38

Dr. Paul J. Miller, Deputy Director & Chief Scientist, Northeast 
  States for Coordinated Air Use Management
    Oral Statement...............................................    44
    Written Statement............................................    46

Dr. Richard B. Belzer, Independent Consultant in Regulation, 
  Risk, Economics & Information Quality
    Oral Statement...............................................    58
    Written Statement............................................    60

Discussion.......................................................    73

             Appendix I: Answers to Post-Hearing Questions

Dr. Paul J. Miller, Deputy Director & Chief Scientist, Northeast 
  States for Coordinated Air Use Management......................   148

            Appendix II: Additional Material for the Record

Document submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   152


                    EXAMINING THE UNDERLYING SCIENCE



                AND IMPACTS OF GLIDER TRUCK REGULATIONS

                              ----------                              


                      THURSDAY, SEPTEMBER 13, 2018

                  House of Representatives,
                    Subcommittee on Environment and
                         Subcommittee on Oversight,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Andy Biggs 
[Chairman of the Subcommittee on Environment] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Biggs. Good morning. Welcome to today's joint 
subcommittee hearing titled ``Examining the Underlying Science 
and Impact of Glider Truck Regulations.'' Today, we will learn 
about glider trucks and the lack of sound science underlying 
the regulations in this industry.
    For those who may not be familiar, a glider truck is a 
vehicle comprised of a newly constructed chassis, frame, and 
cab combined with a remanufactured engine and transmission 
system from an older vehicle, broadly speaking. In October 
2016, Obama's EPA and the National Highway Traffic Safety 
Administration issued a rule requiring glider vehicles to meet 
the emissions standards for the year in which the vehicle is 
assembled, rather than the year in which the engine was 
manufactured.
    Recognizing that this rule, which was slated to take full 
effect in January 2018, would have devastated the emerging 
glider kit industry, the Trump Administration wisely pursued 
corrective action. In August of 2017, then EPA Administrator 
Pruitt stated an intention to repeal the 2016 glider rule, 
which EPA officially proposed on November 16, 2017.
    Four days later, on November 20, 2017, the National Vehicle 
and Fuel Emissions Laboratory (NVFEL) quietly published a study 
on gliders without notifying EPA leadership. It turns out that 
Volvo, which had previously supported efforts to increase 
glider regulations, began secretly working with the NVFEL in 
September of 2017 to conduct this study. This study itself 
surprised me that it was a very small-end study in that there 
were only two vehicles studied.
    In July of this year, Members of this Committee sent a 
letter to Acting Administrator Andrew Wheeler asking for 
documents relating to this study. Materials obtained by the 
Committee clearly show that Volvo, a regulated entity, 
initiated conversations with EPA employees in the NVFEL in an 
apparent effort to shape the outcome of the study by specifying 
test articles to use and laying out the schedule on which the 
test program should be conducted.
    The NVFEL only consulted with Volvo and failed to reach out 
to glider manufacturers for the study. Furthermore, the NVFEL 
based its results on a small and inadequate sample size, only 
testing two glider trucks that were provided indeed by Volvo. 
These facts call into question the integrity of the study.
    The other disturbing fact about the NVFEL study is the 
timing and manner in which it was performed. Completing this 
study in November 2017, more than a year after the original 
rule became final and just two weeks before the public hearing 
on the proposed repeal of that 2016 rule, is highly suspect. 
Not informing anybody in EPA leadership about the study before, 
during, or after it was completed is also concerning. These 
circumstances demonstrate that there was no scientific 
foundation for the 2016 rule in the first place and indicates a 
clear intent to undermine the current Administration's policy.
    Accordingly, it is clear that the 2016 glider rule was 
politically driven. It makes no sense to require that gliders 
comply with standards of the year these trucks are assembled. 
It only serves to hurt small business and help large truck 
manufacturers.
    It also discourages the development of innovative 
technology that help small businesses compete. Gliders salvage 
older-model engines to create a truck that is affordable, 
reliable, and safe. Instead of throwing out older vehicle parts 
and creating more industrial waste, gliders allow old parts to 
be updated, recycled, and reused. To disregard the benefits of 
such innovation is an affront to hardworking Americans who rely 
on these trucks to make a living.
    Now is not the time to prevent creativity that could help 
sustain the trucking industry and our economy. Gliders allow 
for such innovation. Gliders reduce maintenance expenses, have 
better fuel efficiency, and cost about 25 percent less than a 
new truck. These benefits and cost savings allow small 
companies to allocate funds elsewhere, such as increasing 
salaries and hiring more drivers.
    The science that underlies our regulations and policy 
should be unbiased and should consider all applicable 
parameters. This means doing the research and hearing from 
those who understand the industry the best. If the 2016 rule is 
not repealed, then we are setting a precedent for issuing 
harmful regulations without any proper scientific foundation.
    I look forward to hearing from our witnesses today to learn 
more about this important issue.
    [The prepared statement of Chairman Biggs follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Chairman Biggs. And I now recognize the Ranking Member of 
the Environment Subcommittee, Ms. Bonamici, for an opening 
statement.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to our witnesses.
    The negative effects of air pollution on respiratory health 
are well-documented. Exposure to criteria pollutants such as 
particulate matter and nitrogen oxides, or NOx, can lead to the 
exacerbation of respiratory diseases, including asthma, that 
can have devastating effects, especially on children and the 
elderly.
    The Environmental Protection Agency has found that more 
than half of the NOx emissions inventory in the United States 
are from the transportation sector, which is why standards 
limiting criteria pollutant emissions from heavy-duty trucks is 
key to fulfilling the EPA's mission of protecting public health 
and the environment. Commonsense regulations like the phase 2 
rule for greenhouse gas emissions standards for heavy-duty 
vehicles exemplify what happens when the Federal Government 
works collaboratively with regulated industries to create 
standards that are economically achievable, technically 
feasible, and protective of public health, something that some 
members of the Majority seem to suggest is impossible.
    I expect that some of today's witnesses will argue that 
glider manufacturers have the right to petition the EPA to 
reopen the phase 2 rule provisions relating to gliders, which 
they do, but it should be noted that no glider manufacturer 
brought challenges in court following the publication of the 
final phase 2 rule in 2016. Instead, they waited to lobby an 
industry-friendly Administration to repeal the glider 
provisions to benefit their bottom line at the cost of public 
health.
    Some glider manufacturers claim that using a rebuilt engine 
and a glider vehicle can save on the greenhouse emissions 
produced in the steelmaking process, but make no mistake, these 
one-time emissions savings are insignificant compared with the 
total lifetime emissions from glider engines without emission 
controls.
    The EPA has estimated that restricting the use of high-
polluting engines in 10,000 glider vehicles over the lifetime 
of those vehicles would prevent the emission of up to 400,000 
tons of NOx and 6,800 tons of particulate matter and prevent up 
to 1,600 premature deaths. The fact that so much pollution and 
so many premature deaths can be traced directly to the 
manufacture and sale of glider trucks without modern-day 
emission controls is revealing. Allowing this level of 
unchecked pollution on our roadways undercuts the progress made 
in cleaning up diesel engines in the past and is quite frankly 
irresponsible, especially when we have a solution available to 
us: using engines that meet current emissions stand standards 
in glider trucks.
    Also, we are nearly two years into this Administration and 
once again we find ourselves at a hearing that's attacking an 
existing EPA rule and study without a witness from the EPA to 
explain and defend it, but I submit that there is no reason to 
doubt the glider emissions study from the EPA's National 
Vehicle and Fuel Emissions Laboratory in Ann Arbor, Michigan. 
The Majority only seeks to highlight it because the results are 
at odds with the glider emissions studies--study from Tennessee 
Tech University that was used to justify the proposed repeal of 
the glider rule.
    It is very important to note that the Tennessee Tech study 
is currently undergoing an internal research misconduct 
investigation. In fact, the Principal Investigator of the 
Tennessee Tech study has not only removed his name from the 
study but also returned his portion of the funding he received 
from Fitzgerald Glider Kits to conduct it. It is unclear why 
the Majority has shown no interest in this study, although it 
may be because they know that they may not like what they find.
    Colleagues, this hearing should not distract us from the 
main issue at hand. Repealing glider truck provisions based on 
one questionable industry-funded study would have severe 
consequences for public health. It is also important to note 
that the effects of repealing these provisions go beyond public 
health with many members of the trucking industry standing 
alongside environmental and public health groups in opposition 
to the proposed repeal.
    There are many opportunities for legitimate oversight 
within the jurisdiction of this committee, yet my colleagues 
across the aisle seem determined to prop up special interest 
groups most often at the expense of public health. Today's 
hearing on glider truck regulations is another example. Even 
though Chairman Smith and some of his colleagues have made 
accusations of collusion between the EPA and Volvo, no 
representatives from either the EPA or Volvo were invited as 
witnesses today.
    I also want to note that, when preparing for this hearing, 
Minority staff reached out to the EPA to receive a briefing on 
the agency's glider emissions study under discussion today. The 
EPA told the staff that the request would not be granted. We 
are being throttled from conducting legitimate oversight not 
only by the Majority but also by this Administration.
    I look forward to hearing the testimony from Dr. Paul 
Miller, who can address legitimate concerns surrounding the 
proposed repeal of these glider provisions and describe the 
real-world consequences for States and the public if the 
production and sale of glider trucks without modern emissions 
controls are allowed to proliferate unchecked.
    And with that, I yield back the balance of my time. Thank 
you, Mr. Chair.
    [The prepared statement of Ms. Bonamici follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairman Biggs. Thank you.
    I now recognize the Chair of the Oversight Subcommittee, 
Dr. Abraham, for an opening statement.
    Mr. Abraham. Thank you, Mr. Chair. And good morning, and 
welcome to today's hearing. The Chairman's already defined what 
a glider kit is, and it does cost 25 percent than a brand new 
rig.
    So really the purpose of today's hearing is twofold. We 
will examine the economic effects of the Obama Administration's 
greenhouse gas emissions regulation which, among other things, 
proposed a cap production of glider trucks. We will also 
address the integrity of a study on glider truck emissions 
conducted by the EPA's National Vehicle and Fuel Emissions 
Laboratory (NVFEL) in Ann Arbor, Michigan. Documents provided 
through FOIA and committee requests raise serious questions 
about the impartiality of the 2017 EPA study.
    Historically, the Science Committee has worked hard to 
ensure that when regulations are necessary, they are based on 
sound science. Under Chairman Smith, the Committee has also 
worked to level the playing field and ensure that the EPA 
treats all parties fairly. In the case of glider trucks, there 
are red flags surrounding the NVFEL study.
    The Committee obtained emails showing that one particular 
manufacturer had an inside track to EPA and, in fact, provided 
the glider trucks--trucks they did not manufacture--to EPA for 
testing. And I'll get into the details of the EPA study with my 
questions further in the hearing. But from the outset the 
conflict of interest raises questions about the study's 
credibility.
    Relying on a flawed study in this case is particularly 
alarming since the proposed regulation will have dire 
consequences for the glider truck industry. Thousands of 
independent truckers--all smart businesses--across America rely 
on glider trucks as an affordable option for their trucking 
operation. In my district alone there are 883 independent 
truckers, many of whom drive gliders. For me, this is a jobs 
issue. We should not allow the heavy hand of the Federal 
Government to come down and crush an entire industry, 
especially absent a rock-solid scientific reason for doing so, 
which appears to be lacking in this case. In addition to the 
individual truckers, the manufacturers of glider kits would be 
put out of business, killing even more jobs.
    At the request of many of my colleagues, the EPA Inspector 
General has agreed to review the propriety of the study, and we 
look forward to the results of his review. We have joining us 
witnesses today that are experts on regulatory law. I look 
forward to hearing from that testimony.
    And I want to briefly address the regulatory steps EPA has 
taken in this instance and assure everyone that, contrary to 
the picture painted by the media in the headlines such as, 
quote, ``Scott Pruitt Gave Dirty Glider Trucks a Gift on his 
Last Day at EPA,'' unquote, or, quote, ``Super Polluting Trucks 
Receive Loophole on Pruitt's Last Day,'' unquote, EPA does not 
appear to have done anything out of the ordinary in this case. 
According to the administration law experts, agencies routinely 
take the similar steps EPA took with regard to glider trucks. 
Agencies have broad discretion about which regulations to 
enforce.
    What actually was out of the ordinary was the Obama 
Administration's failure to conduct a study on glider truck 
emissions prior to proposing the phase 2 greenhouse gas rule. 
More work needs to be done to understand the impact of gliders 
on the environment. Many experts argue that using 
remanufactured parts over the lifetime of the trucks actually 
has a positive environmental impact.
    I look forward to hearing our witnesses' opinions on the 
environmental issue. More work is needed in this area. We 
cannot simply rely on EPA's studies in this instance.
    [The prepared statement of Mr. Abraham follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Mr. Abraham. And I yield my remaining time to Mr. Posey.
    Mr. Posey. Thank you, Mr. Chairman.
    In 2016, the Chinese-owned Volvo Trucks and its 
affiliates----
    Chairman Biggs. Your microphone, please?
    Mr. Posey. In 2016, the Chinese-owned Volvo Trucks and its 
affiliates lobbied the EPA to secure a cap and prohibition on 
glider trucks in the phase 2 rule. The previous 
Administration's EPA never tested or studied gliders before 
finalizing the rule. This would eliminate the business 
operations of several American-owned glider assemblies.
    In 2017, the Administration sought to roll back this 
burdensome cap and prohibition regulation. After EPA put forth 
a notice of intent to revisit phase 2 rule regulated by glider 
trucks, Volvo contacted career employees at EPA's National 
Vehicle Fuel Emissions Laboratory to propose the idea of 
studying gliders.
    Incredibly, foreign-owned Volvo told the National Vehicle 
Fuel Emissions Laboratory how and when they would like the 
testing performed against the American industry. It paid for 
and procured the gliders to be tested. They told the laboratory 
what was ideal from a testing perspective and wanted to create 
an emissions test that would show gliders to be super-
polluting. For example, one of the trucks applied by Volvo had 
its engine check light illuminated and the other had an entire 
chamber full of oil in the harness.
    Furthermore, the agency used a biodiesel fuel instead of 
the mandated ultralow sulfur diesel fuel according to the EPA. 
Ultra-low sulfur diesel eliminates up to 95 percent of all 
emissions. This test was performed unbeknownst to the 
Administrator's knowledge.
    Gliders serve America's small businesses, transportation 
fleets, family farms and ranches, and independent owner 
operations. Foreign-owned Volvo has put out a narrative that 
gliders are a threat----
    Chairman Biggs. The gentleman's time is expired.
    Mr. Posey. --to the environment. However, the hypocritical 
Volvo operates an entire plant in Sweden that remanufactures 
diesel truck engines. They even tout the environmental benefits 
of these engines. Volvo cannot have it both ways. They're 
either a threat to the environment----
    Chairman Biggs. The gentleman's----
    Mr. Posey. --or a net benefit.
    Chairman Biggs. --time is expired.
    Mr. Posey. Thank you, Mr. Chairman.
    Chairman Biggs. Sorry. Thank you.
    The Chair recognizes the distinguished Chairman of the 
Oversight Subcommittee--or, excuse me, Ranking Member, sorry, 
Ranking Member--let's get that right--of the Oversight 
Subcommittee, Mr. Beyer, for an opening statement.
    Mr. Beyer. Thank you, Mr. Chairman, very much. And thank 
you, Chairman Abraham. Thank you, Chairman Biggs.
    You know, the Majority may portray this issue as one of big 
business versus small business since independent glider 
manufacturers constitute the main opposition to these glider 
regulations. I am a small-business person myself, so I'm 
sympathetic to the challenges that small businesses face.
    But for the sake of transparency, Volvo Cars, I have been a 
Volvo dealer since 1974. We own three Volvo dealerships. It's a 
complete distinct entity from Volvo Group, which sells the 
trucks and the construction equipment. They split off in 1999, 
so I'm not involved at all.
    By the way, Volvo Cars is owned by the Chinese. It was 
owned by Ford Motor Company for a number of years, which is why 
so many Fords look like Volvo chassis, but they sold Volvo Cars 
to the Chinese. The Volvo Trucks, not a Chinese company. It is 
a Swedish company. It is foreign-owned, but it's not Chinese.
    By the way, they are made in Dublin, Virginia, so one of 
the major manufacturers in my State. Very few of them are 
imported. They're mostly made here in the United States.
    Our clean air, the public health should not be jeopardized 
in order to protect any business, large or small. Glider trucks 
are new trucks powered by remanufactured heavily polluting 
engines that are not up to today's standards. And former EPA 
Administrator Pruitt's attempts to repeal the glider 
regulations would endanger the public health in significant and 
well-documented ways, and that's why the American Lung 
Association, the American Medical Association, many other 
health associations all oppose the Pruitt EPA attempts to 
repeal the glider regulations.
    And though companies like Fitzgerald Glider Kits may 
describe themselves as a small business, they really have an 
outsized influence on this debate. They held a rally for 
candidate Donald Trump. They met with former EPA Administrator 
Pruitt. They generated multiple Congressional letters.
    The Majority's chosen to focus solely on discrediting one 
glider emissions study performed at EPA's National Vehicle Fuel 
Emissions Laboratory, but as my colleague Ms. Bonamici has 
said, the Majority did not invite an EPA witness today, and the 
EPA even refused to brief the Minority staff when it was asked. 
So EPA's refusal leaves us in the dark about the very issues at 
the center of this proposed repeal, including a questionable 
Tennessee Tech University study that was funded by Fitzgerald 
Glider Kits, which Pruitt EPA relied on in its efforts to 
repeal the glider regulations. So you have essentially the fox 
guarding the hen house.
    In January 2018, the study's Principal Investigator was so 
concerned about his integrity that he removed his name, he 
returned the $70,000 that Fitzgerald paid. In February 2018, 
the President of Tennessee Tech wrote to the EPA informing that 
the study was undergoing an internal scientific misconduct 
review and requesting that the EPA not use or even reference 
the study until the conclusion of that investigation.
    In May of 2018, the EPA's Science Advisory Board authorized 
a review of the Pruitt glider rule, reporting that the 
supporting science lacks transparency regarding the source of 
and basis for data and failed to take into account its own 
study that demonstrated significantly higher vehicle emissions 
from gliders than from trucks. And the Office of Management and 
Budget has reportedly told the EPA that Pruitt's proposed 
glider repeal rule is incomplete because it lacks a regulatory 
impact analysis.
    But today, the Majority's likely to focus on the rulemaking 
procedures as opposed to public health. Fortunately, we have 
Dr. Miller, Deputy Director and Chief Scientist of the 
Northeast States for Coordinated Air Use Management is here 
today to help us understand the environmental and health 
consequences of unregulated glider production.
    We hold this hearing as Hurricane Florence is bearing down 
on the Carolinas. In the past year we've seen extreme weather 
events from huge forest fires in California that we recognized 
on the House Floor yesterday, a massive hurricane in Puerto 
Rico, and devastated communities nationwide. And evidence shows 
overwhelmingly that climate change has intensified these 
extreme weather events, leading to evermore destruction, and I 
really hope that one day this committee can explore the 
scientific evidence behind such events rather than ignoring the 
facts.
    I'm one of I believe six automobile dealers in the U.S. 
House I think. I'm the only certified automobile mechanic in 
the U.S. Congress. And as I've come to understand the glider 
rule, I wondered what if I took a new Volvo body or Subaru body 
or Mazda body and put an old pre-engine control engine into it? 
It would be a lot cheaper. It would be a lot more affordable 
for a lot of people, but the impact--what if every new car 
dealer and manufacturer just simply retrofit old pre-emissions 
controlled engines into the new bodies they had today? That's 
exactly what we're dealing with with the glider issue. It's a 
way of completely undercutting all the progress we've made in 
clean air from automobile emissions, and I hope that we will 
resist it.
    Thank you, and I yield back.
    [The prepared statement of Mr. Beyer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    [The prepared statement of Ranking Member Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Biggs. Thank you, Mr. Beyer.
    I want to recognize we have a new Member of this Committee, 
and so I welcome Representative Troy Balderson. He's not sure 
whether to say thank you or not. He's kind of--I don't blame 
you.
    Mr. Balderson. Thank you, Chairman. And thank you, 
everyone.
    Chairman Biggs. We're glad to have you as a member of the 
Science Committee. Representative Balderson represents Ohio's 
12th District and was sworn into the House last week. He's a 
former farmer and businessman. Representative Balderson also 
served as a member of the Ohio State Senate and the State House 
of Representatives before joining us here in the House of 
Representatives. And I hope all of you will join me in 
welcoming Troy. We look forward to working with you.
    Mr. Balderson. Thank you very much, Chairman.
    [Applause.]
    Chairman Biggs. Before I introduce our witnesses, I note 
that Mr. Todd Spencer, the President of Owner-Operator 
Independent Drivers Association, was scheduled to be on our 
panel today but had to withdraw at the last minute to attend to 
a family matter in Missouri. Thankfully, Mr. Collin Long from 
the Owner-Operator Independent Drivers Association was able to 
be here in his place. Thank you, Mr. Long, for your quick 
accommodation. We wish the best to Mr. Spencer.
    Now, I'm going to introduce our witnesses. Our first 
witness today is Ms. Linda Tsang. She's a Legislative Attorney 
for the Congressional Research Service and has been in that 
role since 2016. Ms. Tsang previously worked at the EPA as a 
Rule Manager Environmental Engineer from 2000 to 2004. She 
became the Director of Climate and Air Quality at the American 
Forest and Paper Association and was in that position from 2013 
to 2016.
    She holds a bachelor's degree from Massachusetts Institute 
of Technology in environmental engineering and a juris doctor 
from the Vermont Law School. Thank you for joining us today.
    Our second witness is Mr. Collin Long, Director of 
Government Affairs at the Owner-Operator Independent Drivers 
Association. Mr. Long previously worked for Congressman Charles 
Dent in a variety of roles from 2005 to 2012 and went to work 
for the Portland Cement Association from 2012 to 2016. His 
bachelor's degree is from Syracuse University.
    Our next witness is Dr. Paul J. Miller, Deputy Director and 
Chief Scientist at the Northeast States for Coordinated Air Use 
Management. He previously worked at NESCAUM from 1995 to 1999 
as a Senior Science and Policy Advisor. Dr. Miller then went to 
the Commission on Environment Cooperation as an Air Quality 
Program Coordinator from 1999 to 2005.
    Dr. Miller holds a bachelor's degree in chemistry from 
Purdue University, a doctorate in chemical physics from Yale, 
and a J.D. from Stanford University. Glad to have you with us, 
Dr. Miller.
    Our final witness is Dr. Richard Belzer, an independent 
consultant in the regulation, risk, economics, and information 
quality sector. Dr. Belzer worked as a staff economist at the 
Office of Information and Regulatory Affairs within the U.S. 
Office of Management and Budget from 1988 to 1998. He was also 
a visiting professor of public policy at Washington University 
in St. Louis before consulting.
    He received a master's degree in agricultural economics 
from UC Davis in 1980. Dr. Belzer also received a master's in 
public policy from the Harvard Kennedy School in 1982 and his 
doctorate in public policy from Harvard University in 1989.
    I now recognize Ms. Tsang for five minutes to present her 
testimony.

                 TESTIMONY OF MS. LINDA TSANG,

                     LEGISLATIVE ATTORNEY,

                 CONGRESSIONAL RESEARCH SERVICE

    Ms. Tsang. Thank you. Good morning, Chairman Biggs, 
Chairman Abraham, Ranking Member Bonamici, Ranking Member 
Beyer, and Members of the Subcommittees. My name is Linda 
Tsang. I'm a Legislative Attorney in the American Law Division 
of the Congressional Research Service. Thank you for inviting 
me this morning to testify on behalf of CRS. I will be 
addressing the rulemaking process EPA used to adopt the 
emissions standards for glider vehicles, engines, and kits and 
the process EPA is using to repeal them.
    While there may be a number of legal, policy, and science 
questions related to these rulemakings, my testimony this 
morning focuses on the legal requirements related to the 
rulemaking process. While the Administrative Procedure Act 
generally governs agency rulemaking, Congress established 
procedures in section 307(d) of the Clean Air Act that apply to 
the regulation of new motor vehicle emissions. These procedures 
require EPA, among other things, to provide public notice and 
comment on the proposed rule. EPA must also describe the basis 
and purpose of the rule, factual data, legal interpretations, 
policy considerations, and other supporting information. The 
final rule must also respond to significant comments and 
identify any changes to the rule since the proposal.
    Operating under these specific rulemaking requirements, in 
2016, EPA and the National Highway Traffic Safety 
Administration, known commonly as NHTSA, jointly published the 
second phase of greenhouse gas emissions and fuel efficiency 
standards for medium and heavy-duty trucks and engines. In 
addition to setting greenhouse gas emissions standards in the 
phase 2 rule, EPA finalized requirements for glider kits, 
engines, and vehicles. EPA defines a glider kit as a chassis 
for tractor-trailer with a frame, front axle, interior and 
exterior cab, and brakes. It becomes a glider vehicle when an 
engine, transmission, and rear axle are added.
    Beyond the Clean Air Act rulemaking requirements, EPA must 
comply with various statutes and executive orders on 
rulemaking. For example, to comply with Executive Order 12866, 
which addresses the Administration's review of agency 
regulations, EPA and NHTSA developed a regulatory impact 
analysis and submitted proposed and final versions of the rule 
to the White House's Office of Management and Budget for 
review. EPA also submitted its proposed repeal of the glider 
provisions to OMB and has not yet submitted the final rule for 
review.
    In addition, EPA and NHTSA reviewed impacts of the phase 2 
rule to small businesses to comply with the Small Business 
Regulatory Enforcement Fairness Act. In the final phase 2 rule, 
the agencies implemented some of the Small Business Advocacy 
Review Panel's recommendations to reduce the regulatory burdens 
on small businesses, including glider vehicle assemblers. For 
the proposed repeal of the glider provisions, the EPA 
Administrator certified the repeal would not have a significant 
economic impact on small entities because it is a deregulatory 
action.
    EPA must also provide a notice of its proposed rules to its 
Science Advisory Board. Congress directed EPA to establish the 
SAB to provide scientific advice to the agency and to certain 
congressional committees, including this one. For the phase 2 
rule, the SAB concluded that the underlying science for the 
rule did not merit further review. For the proposed repeal of 
the glider provisions, the SAB decided this past July to review 
the science supporting the proposed repeal, including review of 
the emission rates related to glider vehicles.
    To conclude, the Clean Air Act provides detailed procedures 
that apply to both the phase 2 rule and EPA's proposed repeal 
of the glider provisions in that rule. In addition, EPA must 
also comply with the various statutes and executive orders 
related to rulemaking.
    Thank you for the opportunity to testify, and I'll be happy 
to answer any questions at the appropriate time.
    [The prepared statement of Ms. Tsang follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairman Biggs. Thank you so much.
    And now I recognize Mr. Long for five minutes to present 
his testimony.

                 TESTIMONY OF MR. COLLIN LONG,

                DIRECTOR OF GOVERNMENT AFFAIRS,

         OWNER-OPERATOR INDEPENDENT DRIVERS ASSOCIATION

    Mr. Long. Chairman Biggs and Abraham, Ranking Member 
Bonamici and Beyer, and Members of the Committee, thank you for 
providing me the opportunity to testify today. As you heard, my 
name is Collin Long. I'm the Director of Government affairs for 
the Owner-Operator Independent Drivers Association, which you 
may have heard is called OOIDA. OOIDA represents more than 
160,000 small-business truckers across the United States. That 
comprises about 96 percent of the trucking industry.
    OOIDA members have experienced firsthand how federal policy 
changes can dramatically reshape our industry. Unfortunately, 
these policies always place the heaviest burden on the men and 
women who own small businesses and rarely benefit their 
operations in terms of safety or economics. Too often, 
Washington pursues regulations with little regard for the 
practical implications or understanding of how they will affect 
our members. The current discussion surrounding glider kits 
perfectly encapsulates this problem.
    Since 2002, federal emission reduction standards have 
increased the cost of new trucks 50 and $70,000. As a result, 
purchasing a new vehicle has become prohibitively expensive for 
small-business owners. One of the ways our members can manage 
their costs while operating at a high level of efficiency is 
through the purchase of glider kits, which, as you've heard, 
are about 25 percent less expensive.
    A driver's livelihood depends upon a reliable vehicle that 
rarely breaks down and can handle the demands of long-haul 
trucking. Unfortunately, our members who have purchased new 
trucks with the latest emission reduction technology have found 
them to be incredibly unreliable. If a truck becomes a 
liability by routinely being inoperable, the owner must absorb 
the cost of lost productivity while also paying for the 
necessary repairs.
    Because of emissions requirements, today's new trucks also 
utilize complicated and expensive technology, which requires 
the expertise of specialized technicians with proprietary 
machinery who are only found at authorized dealerships. Before 
repairs even begin, owner-operators typically have to pay 
hundreds of dollars just to have the problem diagnosed. For 
some, the task of even finding an authorized dealer can be 
challenging and expensive. Drivers typically purchase glider 
kits with remanufactured engines because it allows them to 
diagnose and repair mechanical issues without the need for a 
technician or specialized equipment.
    A glider kit's reliability extends beyond routine 
maintenance, though, as fuel efficiency is either closely 
matched or in some cases exceeds a new truck's. This is because 
gliders are specifically designed to achieve the best per-
miles--excuse me the best miles-per-gallon performance 
possible. The average long-haul trucker will drive anywhere 
between 100 and 120,000 miles a year, meaning any improvement 
to a vehicle's performance can have a significant impact on 
overall fuel consumption. On average, each of our members 
purchase over 19,000 gallons of fuel per year. An increase in 
fuel efficiency by just one mile per gallon would save almost 
3,000 gallons of diesel per truck.
    While others will debate the environmental impacts 
associated with emission reductions, we think it's important to 
consider how the use of glider kits affects our industry's 
consumption of fossil fuels. A substantial increase in glider 
kit appeal has developed among OOIDA members in recent years. 
In a 2018 survey of owner-operators, 14 percent of respondents 
who plan to purchase a commercial motor vehicle in the next 
several years favor glider kits, while only 12 percent 
indicated they would buy an entirely new truck. These figures 
illustrate a dramatic growth in the glider kit market, as in 
2003, just three percent of our members indicated a preference 
for gliders.
    Chairman Biggs and Chairman Abraham, thank you again for 
the opportunity to testify today. I hope I've been able to give 
you a new perspective on why glider kits are so important to 
small-business truckers. In my written testimony, I've included 
the story of an OOIDA member who made the decision to purchase 
glider kits as a means to save his business. These stories are 
common among our members but are too often lost in this debate 
or disregarded as anecdotal.
    OOIDA appreciates the opportunity to explain why our 
members support the EPA's proposal to reconsider the emission 
requirement for glider kits. Exempting these vehicles from 
phase 2 regulations will continue to provide small-business 
truckers with affordable, reliable, and efficient options when 
purchasing new or used trucks.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Long follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Chairman Biggs. Thank you.
    I now recognize Dr. Miller for five minutes for his 
testimony.

                TESTIMONY OF DR. PAUL J. MILLER,

               DEPUTY DIRECTOR & CHIEF SCIENTIST,

      NORTHEAST STATES FOR COORDINATED AIR USE MANAGEMENT

    Dr. Miller. Good morning. I thank the Chairs and the 
Ranking Members and all the Members of these Subcommittees for 
providing NESCAUM with the opportunity today to offer the 
following comments on the science and impacts of glider kits on 
air quality.
    NESCAUM, by way of introduction, the Northeast States for 
Coordinated Air Use Management, is a nonprofit regional 
association of State air pollution control agencies in 
Connecticut, Maine, Massachusetts, New Hampshire, New Jersey, 
New York, Rhode Island, and Vermont. And we provide at NESCAUM 
policy and technical support to our State members for their air 
quality and climate programs.
    Our member State agencies have the primary responsibility 
for developing strategies that will attain and maintain air 
quality that is protective of public health and the environment 
for their citizens and those living downwind in out-of-state 
areas. NESCAUM and our member States strongly oppose a repeal 
of emission requirements for glider kit trucks because of the 
very serious harm to air quality and public health that will 
occur if this loophole is reopened.
    At its core, absolving new glider vehicles from complying 
with current engine standards is inconsistent with the Clean 
Air Act's primary purpose to protect and enhance the quality of 
the Nation's air resources so as to promote public health and 
welfare.
    With over 42 million people in the Northeast, the New York 
City metro region, and beyond, we still continue to have 
episodes of poor air quality both for ground-level ozone, which 
nitrogen oxides or NOx are primary contributors, and 
particulate matter. And during severe events, the extent of 
this can extend over 200,000 square miles across the Eastern 
United States. Local and regional sources contribute to this 
problem.
    Diesel exhaust is a major source of particulate matter, 
nitrogen oxides contribute to this, and it is responsible tens 
of thousands of premature deaths, hospital admissions, and lost 
work and school days in the United States annually. Diesel 
particulate matter in exhaust has been linked to increased 
cancer and noncancer health risks. Based on the science EPA 
considers diesel exhaust a likely human carcinogen when 
inhaled. The California Air Resources Board lists it as a known 
carcinogen, as does the International Agency for Research on 
Cancer, an arm of the World Health Organization. Peer-reviewed 
studies continue to strengthen the case that exposure to 
particular matter at levels below current health standards is 
damaging of public health.
    In its 2016 phase 2 rulemaking, EPA correctly recognized 
that while glider kits can have legitimate uses as powertrain--
sources of powertrain engines, salvaged from wrecked vehicles, 
they have increasingly been marketed as so-called pre-emission 
engines, in other words, engines that don't meet current 
standards. We agree with EPA's original analysis and its more 
recent 2017 glider kit emissions testing showing the 
distinction between glider kits using 2002 and earlier engines 
versus engines meeting current emissions standards.
    EPA estimates for glider vehicles to meet the same NOx and 
P.M. emission limits with current engine standards would reduce 
190,000 tons per year of NOx and 5,000 tons per year of P.M. 
emissions in 2025. That would grow to 319,000 tons per year of 
NOx and 8,500 tons per year of particulate matter in 2040. The 
reason this is important to our states is because of NOx 
emissions, we continue to violate the ozone standards. NOx 
emissions are the primary precursor pollutant to ozone. Ozone 
is not directly emitted. And on-road highway diesel vehicles 
are about 25 percent of our NOx emissions inventory causing our 
ozone problem.
    We cannot address our ozone problem without addressing 
glider kits. Five thousand glider kits are the equivalent NOx 
emissions of about 200,000 new vehicles meeting current engine 
standards, so a relatively small portion of those engines, 
those kits contribute disproportionately to our problems.
    With regards to the testing, we believe that EPA's approach 
is consistent with our own State approaches. They used an 
accredited testing lab. They followed a standard regulatory 
drive cycle. They provided data sets with transparent analysis. 
They maintained rigorous quality assurance and quality control, 
and they did the test in triplicate.
    Comparing this--and working, by the way, with industry on 
these testing programs is standard procedure with our States. 
It's something that I think should be encouraged, and we 
certainly don't see a problem with that. So this is not at odds 
with what Assistant Administrator William Wehrum described in 
the letter to this committee.
    Contrast to Tennessee Tech, an uncredited facility owned by 
a glider manufacturer, did not use a regulatory cycle--test 
cycle, did not repeat test runs, did not report the actual 
data, so it's a subjective analysis. It's a visual inspection 
of a probe that's used by mechanics, not by our States in using 
the comparative certification, and no NOx emissions data were 
presented, so we have no idea actually of what the true results 
were.
    So with that, I conclude my statement, and I am happy to 
take questions at the appropriate time. Thank you.
    [The prepared statement of Dr. Miller follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairman Biggs. Thanks, Dr. Miller.
    I now recognize Dr. Belzer for five minutes to present his 
testimony.

              TESTIMONY OF DR. RICHARD B. BELZER,

             INDEPENDENT CONSULTANT IN REGULATION,

             RISK, ECONOMICS & INFORMATION QUALITY

    Dr. Belzer. Good morning. Thank you, Mr. Chairman. I 
appreciate the opportunity to testify concerning work I 
conducted in May for Fitzgerald Glider Kits. This is a strawman 
regulatory impact analysis for EPA's regulation rescinding the 
glider provisions in what is being called the phase 2 
greenhouse gas rule.
    That work is my own work product. I performed it from start 
to finish in about two weeks. Fitzgerald did not have the right 
to approve it, and it is published as a working paper on my 
website.
    And I had to perform this because, normally, when we look 
to the regulatory impact analysis for the phase 2 rule to find 
the benefits and costs of rescinding a provision, one cannot do 
that, however, because the phase 2 rule regulatory impact 
analysis is significantly incomplete.
    So I have four key points to make, and you'll see it on the 
next slide there.
    [Slide.]
    Dr. Belzer. There are significant errors in EPA's analysis. 
They came up with $238 billion in present value net social 
benefits. They committed several errors, two I will mention. 
First, they assume that companies that buy trucks are unable to 
rationally account for fuel economy in their purchase 
decisions. This is an astounding claim. Fuel is the largest 
cost of operating a heavy-duty truck.
    Second, EPA estimated that the phase 2 rule would send $66 
billion in U.S. wealth to other countries, and they counted 
these wealth transfers as benefits to Americans. This is an 
elementary violation of accepted practice in benefit-cost 
analysis. When you take these two errors out alone, you end up 
with $26 billion in net present value costs for the phase 2 
rule. This is shown on that slide in front of you.
    EPA also did not analyze incremental benefits and costs of 
banning gliders. Go on to the next slide, please.
    [Slide.]
    Dr. Belzer. The regulatory impact analysis is 1,100 pages 
long. That's more than two reams of paper. In that, there is no 
analysis of the benefits and costs of essentially banning 
gliders from the heavy-duty truck market.
    So what do you do? Well, you go to the preamble to the 2016 
rule, and there you will see that EPA reports an estimate for 
the benefits of it. The preamble is almost 800 pages long. This 
part, surrounded by yellow highlighter, is the total sum of 
their analysis of the benefits of regulating gliders.
    So they didn't show their work, and since they didn't show 
their work, nobody outside of EPA can actually replicate it. To 
obtain their estimate, though, they also seem to have assumed 
that every glider removed from the market is a new truck sold. 
That makes no sense. Those who would purchase gliders can buy a 
new truck. They could buy a used truck from a secondary market, 
or they could retain an existing truck in service longer than 
its planned lifetime.
    Let's assume that new trucks have fewer emissions, lower 
emissions than gliders. But it's likely that used trucks and 
old trucks retained in service have higher emissions, so the 
question is what is the net change in emissions? And the net 
change in emissions from banning gliders could well be positive 
and not the $6-14 billion that the EPA claims.
    Now, my analysis shows how to estimate the environmental 
benefits and costs. Go to the next slide, please.
    [Slide.]
    Dr. Belzer. And I don't have any data to estimate these net 
benefits or costs because EPA didn't collect the data prior to 
regulating gliders. But I can tell you what the condition would 
be, and that's how you would go about it. What you're looking 
for are emissions for all four types of vehicles, and you 
weight them by their environmental impacts, and from that, you 
try to estimate what proportion of gliders would be replaced by 
new trucks. Policymakers can look at that and decide is that 
reasonable or is that not?
    It requires good data, objective data. Obtaining good 
emissions data is challenging because it's really easy to get 
bad data. You can tweak the emissions test or you can even more 
easily, select trucks likely to test the way you want them to. 
But it's important to have a sample that's large enough to 
extrapolate to the market, and I don't know how large that 
sample would have to be, but I do know that two is not the 
optimal sample size.
    I do know that it could be done better, and I think the 
right way to go about this is actually to collaborate on a test 
protocol, do the test together so that everybody is in 
agreement that the tests are performed correctly and honestly. 
Thank you very much.
    [The prepared statement of Dr. Belzer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairman Biggs. Thank you. I thank all the witnesses for 
their testimony today and again for being with us, and now it's 
time for questions and I recognize myself for five minutes.
    And I just want to clarify some points made by the minority 
I disagree with about the Tennessee Tech study. This hearing is 
not relying on the Tennessee Tech study quite frankly, and 
you'll notice that none of us mentioned that except for on the 
other side. We're not here to discuss that study or offer it as 
proof of gliders being environmentally friendly. We're here to 
examine the EPA study for which we have documents showing undue 
influence from Volvo.
    Furthermore, when then-Administrator Pruitt relied upon 
Tennessee Tech study, it was the only glider study in existence 
because EPA had not completed its study yet, let alone informed 
the EPA leadership that a study was in progress. The mere fact 
that there are two studies now at odds with one another, in 
addition to questionable practices that indicate bias, 
illustrates the need for more in-depth examination of this 
issue, and that's what I think we are trying to get at today, 
the need for more in-depth analysis.
    I want to go to Mr. Long first. Can you please elaborate on 
some of the issues facing the trucking industry today as far as 
workforce shortage, business expenses--as far as those are 
concerned?
    Mr. Long. Sure, I'd love to. We contend there is no 
shortage of drivers, but you've all been hearing there is. 
There's a turnover problem because a lot of folks are unable to 
remain in the business. And this is a typical reason why. Right 
now, as I mentioned, our testimony includes a story of a 
gentleman who owns a small business that's been in his family 
since the 1960s, and he was faced with the problem of whether 
or not to purchase new glider kits to remain in business or to 
exit the trucking industry altogether, and that was because he 
had purchased some new trucks with all the environmental 
technology included, and they were so unreliable that they were 
costing them tens of thousands of dollars a year and not only 
in repairs, in lost productivity because they spent so much 
time in the shop getting worked on. So he came up with the 
decision to purchase gliders as an alternative because they 
were much more reliable, and he was capable of maintaining the 
better on his own.
    So I would say regulation as a whole is driving a lot of 
our members out of the industry. In this case, it's costs 
driving them out of the industry. Certainly every regulation 
comes with a cost, but in this one, it's taking away a reliable 
alternative option for them to purchase a new truck.
    Chairman Biggs. Thank you. Now, Dr. Belzer, I want to get 
to your brief but very informative testimony. What--I mean, 
you've suggested that there be more collaboration on the study. 
I was surprised that it was what I would call an extreme small-
end study. What could have been done differently to produce 
more transparency and eliminate what I view as bias? I mean, 
every time you have a study, if you're conducting the 
scientific method the way I was taught, you want to eliminate 
bias as much as possible. How would we do that here?
    Dr. Belzer. Well, I should first say I'm not an engineer, 
so I would hesitate to attempt to devise the protocol, but what 
needs to be done is a protocol needs to be agreed upon by EPA 
and the various different stakeholders in industry. There 
should be a way of agreeing on how to do this properly, and 
that would include all the different elements of the test, and 
it doesn't sound like there's a great deal of controversy about 
what those should be. It would also include a sample size and a 
procedure for selecting trucks for the sampling. Remember what 
you're doing is you're extrapolating to an entire industry from 
a very small sample. The opportunity for error, never mind 
bias, but opportunity for error is just very great, and a 
sample of two doesn't do it, no matter how well the two were 
collected or assembled. A sample of a dozen may not be enough. 
I'm not an expert in sampling theory and how to good about 
that.
    But I think that if they collaborate on the technology for 
the test, they collaborate on doing the test, they look over 
each other's shoulders, that's the way to get it done and make 
sure everybody's happy with it. Then you can go forward with it 
and use it for policy purposes.
    Chairman Biggs. Thank you. I'm going to conclude my time 
and recognize the Ranking Member of the Environment 
Subcommittee, Ms. Bonamici, for five minutes.
    Ms. Bonamici. Thank you, Mr. Chairman.
    Some of today's witnesses have argued that the EPA's 
deregulatory action on gliders should not require a Regulatory 
Impact Analysis, and several Members of the Majority actually 
made a similar argument in a recent letter to the OMB. But I'd 
like to bring to their attention a 2017 White House memorandum 
that states, ``Agencies must continue to assess and consider 
both the benefits and costs of regulatory actions, including 
deregulatory actions.'' So I'd like to request unanimous 
consent to enter this memo into the record.
    Mr. Abraham. [Presiding.] Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Bonamici. We also must recognize the consequences of 
deregulation. In fact in August the Regulatory Impact Analysis 
for the Trump Administration's rollback of the Clean Power 
Plan, which is also known as the Affordable Clean Energy Rule, 
was released to the public with a shocking conclusion. In fact, 
a New York Times headline says it all: ``Cost of new EPA coal 
rules up to 1,400 more deaths a year.'' These estimates were 
from the EPA's own technical analysis. I request unanimous 
consent to enter this article into the record.
    Mr. Abraham. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Ms. Bonamici. Thank you, Mr. Chairman.
    The pollutants, including carbon dioxide, nitrogen oxides, 
and particulate matter, are similar to those that would 
increase should glider regulations be rolled back.
    Mr. Long, my uncle was a long-haul truck driver and, like 
Representative Beyer said, he's a small-business owner. We hear 
those concerns. We want to make sure that this committee can 
work on addressing those concerns without jeopardizing public 
health and the environment.
    Also, Mr. Chairman, Mr. Posey suggested that the EPA lab 
testing was somehow compromised because a check engine light 
was on one of the glider vehicles when it arrived at the 
facility. However, the EPA report fully acknowledges this and 
details that it was a result of oil in a connector--a connector 
of oil temperature sensor, and that was cleaned, reinstalled, 
and repaired prior to the testing. The issue did not reappear 
for the remainder of the testing, so implications that the 
study was compromised because of this are therefore 
demonstrably false. And I'd like to enter that EPA report into 
the record.
    Mr. Abraham. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Ms. Bonamici. Thank you, Mr. Chairman.
    Dr. Miller, thank you for your testimony. What is your 
assessment of the claim that Regulatory Impact Analyses are not 
necessary for deregulatory actions? And based on your 
expertise, what might a Regulatory Impact Analysis demonstrate 
for the proposed rollback of glider regulations?
    Dr. Miller. I guess you noted OMB guidance--I think OMB 
circular A-4 in addition requires that regulatory and 
deregulatory actions all go through a regulatory impact 
assessment. And I think in this case, based on the number of 
excess emissions from glider vehicles with pre-controlled 
engines, especially the most popular pre-2002 engines, you're 
talking about potential implications of up to 1,600 avoided 
premature deaths, and the costs of that is about $11 billion. 
When associated with the excess emissions of about 5,000 glider 
trucks, if you do the math, that's a foregone health benefit of 
about $1.1 million per truck. And that's what a regulatory 
impact assessment of rolling back this loophole repeal would 
show.
    I would also like to state very quickly in this context of 
only two trucks, California also did roadside monitoring 
entered into the rulemaking docket that's very consistent with 
the EPA dynamometer tests in the lab, and so there is backing 
for that as well.
    And I'd also like to emphasize the physical implausibility 
of an engine with no emission controls being as clean as an 
engine with modern emission controls. It defies physical 
explanation. The comment that sulfate emissions are reduced by 
98 percent is technically true but irrelevant. Sulfate 
emissions--primary sulfate emissions out of a diesel engine are 
only a few percent of total particulate emissions. Most of it 
is carbon-based with toxic metals, organics. Sulfate is only a 
small part. The reason for lower----
    Ms. Bonamici. Dr. Miller, I want to get one more--I don't 
want to interrupt, but I want----
    Dr. Miller. Sorry.
    Ms. Bonamici. --interrupt, but I want to get one more----
    Dr. Miller. All right. Sorry.
    Ms. Bonamici. --question in the remaining time. I noticed 
in your impressive bio that you have not only a science 
background but a law degree, so I wanted to ask you, the 
proposed EPA rule published in November of 2017 justified a 
repeal on restrictions on glider vehicle production by claiming 
that glider vehicles and engines do not constitute new motor 
vehicles or engines according to the Clean Air Act. What's your 
response to that?
    Dr. Miller. I think it defies the purpose of the Clean Air 
Act. It's going through a legal contortion interpretation to 
undermine the general purpose Congress set out in the beginning 
of the Clean Air Act that it is to protect the Nation's air 
resources and protect public health and environment. You really 
have to go through contortions looking at, for example, a 1958 
consumer protection information law to try to get around the--
you know, if it looks like a duck and it quacks like a duck, 
it's probably a duck. These are new engines. These are new 
vehicles--with old engines, excuse me, installed, and they are 
meant to circumvent the post-2010 emission standards. They're 
advertised as pre-emissions, and it's the huge portion of our 
emissions inventory.
    If these emissions are out there, our own local businesses 
are going to incur costs at two, maybe three, maybe four, maybe 
greater times to compensate for those emissions that we're 
going to have to reduce, so those are additional costs we have 
to deal with.
    Ms. Bonamici. Thank you. I see my time is expired. I yield 
back. Thank you, Mr. Chairman.
    Mr. Abraham. Thank you. I recognize myself for five 
minutes.
    I'm a physician by trade, and I was taught very early in 
medical school when you review a scientific article to look at 
the author, whether there's bias or not, and look at the sample 
size. And I think in this particular EPA study there's 
certainly a credibility issue as far as size and possible bias.
    Dr. Belzer, I'll ask you. In my testimony I've got 800 
independent and small-business truckers who, you know, their 
business, their livelihood depends on these trucks. What's the 
estimated price difference between a glider and a new truck? 
That's for you, Dr. Belzer.
    Dr. Belzer. It's my understanding that it is 25 to 30 
percent. It was a quarter to a third less expensive for a 
glider than a new truck, and therefore, a new truck would be 
about 40 percent more expensive than a glider.
    Mr. Abraham. So if the EPA imposes these regulations that 
eliminate the cost-competitive option like these glider kits, 
is it safe to assume that the price for new trucks would go up?
    Dr. Belzer. I don't know. I think that it might. I think 
that it depends on the proportion of sales involved. I suspect 
that the number of glider buyers who would go to buy new trucks 
is very small and that they would tend toward buying used 
trucks or rehabilitating their existing ones. I don't think 
that the numbers of gliders is very large compared to the total 
number of heavy-duty class eight trucks being sold, so it's 
possible that the price could go up, but it's hard to tell how 
much that would be. I think the likely effect is elsewhere.
    Mr. Abraham. Okay. And the likelihood of a glider owner 
having to go buy a new truck or actually buying a new truck is 
probably not significant?
    Dr. Belzer. Well, that is the key question. I believe that 
what EPA did in its paragraph of analysis is it assumed that 
that's exactly what they would do and they would do nothing 
else. Now to be clear, I can't tell what they did because they 
don't disclose their model, but it is consistent with the 
estimated emissions, the reported emissions that are being 
bandied about, that they've taken the 5,000 or 10,000 gliders 
and replaced them with brand-new trucks. That would not happen 
in the market.
    Mr. Abraham. Okay. Mr. Long, in your testimony you 
mentioned the growing popularity of glider trucks and how they 
play a great role in keeping the market stable and competitive. 
How does that EPA Phase 2 regulations on the glider industry 
impact the availability and affordability of truck equipment?
    Mr. Long. I'm not sure we've really seen an impact yet, but 
it's certainly going to affect how our drivers view decisions 
down the road on what to purchase, which they quite frankly 
have to face continuously. I mean, a truck can go south pretty 
quickly, and they'll be forced to purchase a new vehicle. The 
problem is most of our members can no longer afford new 
vehicles because of all the equipment that are associated with 
emissions reductions, technology that have been placed on them 
by the government.
    So also touching on what Ranking Member Bonamici had to say 
is that a lot of these members are forced to drive their 
current trucks into the ground before they even consider 
replacing them. These aren't necessarily any cleaner than a 
glider kit, which they can at least specify with better 
aerodynamics, better fuel efficiency, so it really isn't--the 
choice for our members is whether or not they continue with 
their current truck and try and get every mile out of it, 
whether they buy a new--excuse me, a used truck or whether they 
purchase a glider kit because they simply can't afford new 
trucks at this point.
    Mr. Abraham. Thank you. Ms. Tsang, in the case of glider 
trucks, the EPA under the Obama Administration did conduct a 
regulatory impact analysis before proposing the phase 2 
greenhouse gas rules. However, this RIA lacked any thorough 
analysis on the glider provisions. Is it unusual that the EPA 
did not engage in a full analysis?
    Ms. Tsang. Thank you, Chairman. I can generally speak to 
the regulatory impact analysis process that EPA used. There was 
some justification in terms of why they were looking at certain 
modeling data for the glider kits, but beyond that, I can look 
further into that after the hearing.
    Mr. Abraham. Okay. Is there any regulatory impact analysis 
on all aspects of a regulation required or are agencies 
required to follow the analysis?
    Ms. Tsang. In terms of wheather there are OMB procedures on 
how to conduct the regulatory impact analysis?
    Mr. Abraham. Okay. Let's continue that then. In the normal 
course, is it fair to say that agencies issuing rules that 
affect an entire industry would do such an analysis prior to 
proposing the rule?
    Ms. Tsang. Under Executive Order 12866, significant 
economic regulations are required to go through a cost-benefit 
analysis if it significantly affects the economy over $100 
million, and there are other criteria as well. So if the agency 
considers a regulation a significant regulation, it must go 
through this cost-benefit analysis.
    Mr. Abraham. Okay. Thank you. I'm out of time.
    Mr. Crist, you're recognized.
    Mr. Crist. Thank you, Mr. Chairman, and thank you to our 
witnesses for being here today.
    It seems to me that if the EPA moves forward with a repeal 
of glider regulations, that will effectively turn over the 
decision to how to treat gliders to the States. As I'm sure you 
know, California has already approved glider regulations that 
align with the 2016 standards. There also seems to be a lot 
more awareness now than there was a few years ago of the health 
impact of gliders. Given this, and as a former Governor, I 
could see several States following in California's footsteps.
    Dr. Miller, I'd be curious. Can you please comment on 
whether you think my interpretation of the situation is 
accurate? Could States start regulating glider vehicles on 
their own if there is no federal standard in place?
    Dr. Miller. Thank you. I will speculate. If--which I think 
is unlikely--but if it is determined EPA does not have 
statutory authority on the Clean Air Act to regulate glider 
kits, then States would not be preempted from regulating glider 
kits on their own. Based on the air pollution problem we have 
in the Northeast and presumably other States have similar 
problems elsewhere, I can say our States will look very, very 
closely at, at least banning glider kits with pre-2010 engines, 
and I would hope the glider kit manufacturers tell potential 
buyers that their trucks may not be allowed in those States.
    So yeah, I think it's going to have an implication because 
we have to deal with these trucks. We have to deal with new 
trucks, too, meeting new standards. We don't think they're 
going to be clean enough for us, so it's not just glider kits. 
It's everything heavy-duty on the road, and we've got to deal 
with that or we're not going to achieve our standards in public 
health protection.
    Mr. Crist. What do you think would be a tipping point for 
States to decide to write their own regulations?
    Dr. Miller. Well, allowing the unlimited production of pre-
2010 glider kit engines or glider kit vehicles with those 
engines, yeah.
    Mr. Crist. What challenges might arise if different States 
have different policies on glider vehicles?
    Dr. Miller. As I mentioned earlier, you're going to have a 
problem with interstate trucking trying to go from one place to 
another where they may not be allowed to go through a 
particular State and have to go around it.
    Mr. Crist. Dr. Miller, in your testimony you mentioned that 
the older engines typically used higher glider vehicles lack 
certain safety features such as electronic stability control 
and lane departure warnings. Can you elaborate on what these 
safety features are and how a driver and the public may be 
affected by the lack of these safety features?
    Dr. Miller. Yes, so the most popular glider kit engines, 
the pre-2010 engines, do not have the electronic capacity to 
run a number of modern electric safety features. That includes 
things like electronic stability control to prevent rollover, 
the adaptive cruise control to limit excess speed, and lane 
departure warnings to prevent collisions. So those are features 
that modern engines, current engines have the capacity to 
support but the older pre-2002 engines do not.
    Mr. Crist. Thank you very much. Mr. Chairman, I yield back 
my time.
    Mr. Abraham. Thank you, Mr. Crist.
    Mr. Posey, you're recognized.
    Mr. Posey. Thank you very much, Mr. Chairman.
    This hearing was called because of a possible complicity 
between Volvo and career employees at the National Vehicle Fuel 
Emissions Laboratory to create a faulty if not fraudulent 
emissions study of gliders to eliminate competition from some 
small American manufacturers. Despite the other side's attempt 
to make this an issue about whether gliders are good or gliders 
are bad or whether they're hurting the environment or whether 
they're helping the environment, this hearing is about an 
agency's violation of the public trust, and that's what we're 
here to try and rein in.
    And so, Dr. Miller, the Northeast States for Coordinated 
Air Use Management advocacy group, is it affiliated with other 
advocacy groups, lobbying associations, trade associations or 
think tanks?
    Dr. Miller. Affiliated in a legal sense, no.
    Mr. Posey. Okay. In a nonlegal sense?
    Dr. Miller. We work with other groups that are common 
interest with the States--
    Mr. Posey. Okay.
    Dr. Miller. --and their interest to protect public health, 
yes, we do.
    Mr. Posey. Have they ever been asked by advocacy groups, 
lobbying associations, trade associations, think tanks, or 
whatever to offer positions in an attempt to influence 
lawmakers or regulators?
    Dr. Miller. We have been asked from time to time for those 
things, and we check with our States. If they're consistent 
with their own State interests--we take all comers. I would 
assume if a constituent asked you something, you would look at 
it the same way.
    Mr. Posey. Okay. Does it ever act in response to your 
request to influence lawmakers or regulators on behalf of those 
requesting assistance?
    Dr. Miller. On behalf of--you mean the entity asking 
NESCAUM--
    Mr. Posey. Yes. Yes.
    Dr. Miller. --on their behalf?
    Mr. Posey. Yes.
    Dr. Miller. We do not ask on others' behalf. It has to make 
sense for our States. We get asked, but we have to run it 
through our own States. If it's consistent with our own State 
goals, then we own it.
    Mr. Posey. Okay. Well, I'd like to introduce an email into 
the record from December 8, 2017, from Dr. Miller to Michael 
Myers concerning the glider repeal rulemaking. Are you familiar 
with this, sir?
    Dr. Miller. Yes, I am.
    Mr. Posey. Who is Mr. Miller--or Mr. Myers?
    Dr. Miller. Mr. Myers is an Assistant Attorney General for 
the State of New York.
    Mr. Posey. Okay. In this email you write, ``We've been 
asked by EDF if NESCAUM could submit a comment deadline 
extension request to EPA. EDF thinks a request from a State 
organization might be better received at EPA than one from an 
environmental group.'' How do you interpret that request?
    Dr. Miller. I'm flattered. Here is a national environmental 
group that a number of people obviously think have a lot of 
influence, and on this particular issue, they think we as a 
regional State association and our States might actually have 
more influence than they do.
    Mr. Posey. Okay. What does EDF stand for?
    Dr. Miller. Environmental Defense Fund.
    Mr. Posey. Okay. Dr. Belzer, I have an email uncovered 
under the Freedom of Information Act that shows possible 
collusion between Volvo and the EPA on initiating a glider test 
particularly. Have you seen the email before you related to 
Steve Berry from Volvo Trucks to Bill Charmley and Angela 
Cullen of the EPA?
    Dr. Belzer. It's not before me, and I don't believe that 
I've seen that.
    Mr. Posey. Okay.
    Dr. Belzer. Maybe I have, but it's not before me and I 
can't tell.
    Mr. Posey. Okay. I was going to ask you some real good 
questions about that. All right. Well, I'm going to have to 
skip those questions.
    Mr. Chairman, I'd like to include this article for the 
record. The article touts Volvo's efforts ``as good as new, and 
the process has less impact on the environment'' in 
remanufactured engines in Flen, Sweden.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Posey. And now, Dr. Belzer, Volvo trucks is a leading 
opponent to glider trucks, and they have said in their public 
comments that gliders are unclean and proclaim that the 
environmental harm that could result from the repeal of the 
phase 2 glider provisions is inexcusable. Can gliders be 
environmentally friendly in Sweden but here in the United 
States not environmentally friendly?
    Dr. Belzer. I would certainly agree that the statements do 
appear to be contradictory. I think that the right way to go 
about this is simply to recognize that if gliders are no longer 
available, there will be alternatives, and the alternatives are 
new trucks, used trucks, and retaining existing trucks in 
service a longer time. The latter two are probably going to 
have higher emissions than gliders, and so we don't know the 
net change in emissions from banning gliders, and 
unfortunately, the EPA approach to assume away those other ways 
of complying--is a problem. Now, EPA had the authority to 
regulate all rebuilt engines instead of regulating gliders, but 
it chose not to do that.
    Mr. Posey. Okay. Thank you, sir. I see my time is up. I 
yield back.
    Mr. Abraham. Mr. McNerney.
    Mr. McNerney. Well, I thank the Chairman, and again, I 
thank the panelists for testifying this morning.
    Some glider proponents have claimed that the Volvo truck 
group colluded with EPA's Michigan lab to initiate a study on 
glider emissions. They also claim that the EPA lab officials 
never notified the EPA's headquarters staff about these tests. 
These claims are demonstrably false, and I will show--in fact, 
EPA initiated a glider emission study as a response to a House 
Appropriations Committee report. And in July 2017 staff at 
EPA's lab informed EPA's leadership in Washington that they 
would begin scoping a glider test program.
    I'd like to enter these emails into the record, the first 
of which began on July 27, 2017, before the email that was 
submitted by Mr. Posey, showing that the House Appropriations 
Committee report urging EPA to conduct the study.
    Mr. Abraham. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Mr. McNerney. Thank you. I also would like to submit for 
the record an article showing that the California's Air 
Resources Board condemned the EPA's move to allow high-
polluting older trucks on the road. In fact, this report shows 
that one old dirty engine with a glider test kit is equal in 
emissions to 450 new trucks. I'd like to submit this for the 
record.
    Mr. Abraham. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. McNerney. Dr. Miller, you've read the EPA's report on 
glider emissions. Can you please tell us whether you saw any 
red flags in reading that report, and why do you think this 
report is important and valuable?
    Dr. Miller. Yes, I've read the report, and I also, prior to 
this hearing checked with my own states and other states 
outside my region on their own practices, and everything in 
that report is consistent with State testing practices that our 
own membership does and elsewhere, the use of accredited 
facilities, the use of standard test cycles.
    The protocols exist. We don't need to reinvent them. The 
certification protocols exist. They were followed. They were 
clearly presented in the report. All the data collected were 
clearly presented in the report. They actually did fix that--
the malfunction indicator light before they tested. They 
indicated that they did that. They showed the data both with 
the light on, testing without the light. It was all 
transparent. The analysis is transparent. It's all numerical. 
It was done under test cycles that reflect actual real-world 
driving conditions including load pulling. This is all standard 
stuff. There's nothing in there that I can see that just smacks 
of Jerry-rigging the results.
    Mr. McNerney. And do you believe that--the CARB's claim 
that one dirty truck with the kit is equal to 450 clean trucks 
in emissions?
    Dr. Miller. I will hedge on that in the sense that it's one 
truck. I do agree that, based on their measurement, that one 
truck had the emissions of 450 new trucks. Depending on other 
trucks they'll be all over the place. I do think, based on the 
testing, that in general one can say it's about an order of 
magnitude higher. In that case it's two orders of magnitude 
higher. I don't know if that's an outlier, but I'm pretty 
confident it's at least an order of magnitude across the board.
    Mr. McNerney. Okay. Thank you, Mr. Chairman. I yield back.
    Mr. Abraham. Thank you, Mr. McNerney.
    Dr. Marshall?
    Mr. Marshall. Thank you, Mr. Chairman.
    First of all, I'll start with Mr. Long and say I'm 
grateful. We have I guess 1,300 drivers in my district. Kansas 
maybe the second-, third-most number of highway miles in the 
country. I represent the largest ag-producing district in the 
country. The one thing that my ag producers can do for sure is 
get our commodities to market cheaper than any competitors out 
there, and your industry is a big, big part of that. So I'm 
grateful for the business that they do do. My first job was 
loading cattle trucks. I was 15 years of age working at a sale 
barn and worked with a lot of your members as well.
    In that industry right now, one of the biggest challenges 
that they're facing, these small owners, the small companies, 
Mr. Long? Yes.
    Mr. Long. I would say one of the biggest challenges is 
indeed overregulation, and a lot of it is caused by larger 
entities kind of forcing their will through the government, 
whether it be regulatory or legislative, to require more 
mandates and more safety devices that aren't actually improving 
safety. There's a laundry list of issues that we're currently 
fighting to prevent that would simply increase costs for our 
members and burdens for our members rather than promote highway 
safety, improve their economics, or improve their efficiency. 
So this is just another example we think of smaller members--
or, excuse me, smaller businesses getting lost in the 
discussion and just allowing a government entity and a large 
corporation to kind of dictate the discussion and ultimately 
the outcome when our members are going to bear the largest 
burden, whether it be cost or potentially even running them out 
of business.
    Mr. Marshall. Maybe you talk about electronic logging 
devices a second, how they're impacting you, especially the 
live animal hauling industry.
    Mr. Long. Sure. Only a fraction of our members are involved 
in the livestock industry, and we appreciate the relief that 
they've been getting from Congress or that they will soon be 
getting from Congress. The ELD issue has been another example 
of large corporate motor carriers convincing unfortunately you 
and your colleagues--maybe not all of you here at the table 
today because it did happen back in 2012--that ELDs were a 
safety device, and our members contend that they certainly are 
not--they just track their hours. They don't promote safety at 
all. So that's an example of a $2 billion mandate that has been 
kind of forced upon our industry by larger corporate motor 
carriers in an effort to diminish our efficiency and increase 
our costs.
    Mr. Marshall. Okay. Thank you. I'll go to Dr. Belzer.
    Dr. Belzer, I'm a physician, and as I try to review EPA 
research, I really have a hard time following it. And I would 
say that if we practice medical research the way the EPA does, 
we wouldn't be making some of the great advances that I'm 
seeing.
    When they did their analysis, an average trucker 100,000 
miles a year, about six miles to the gallon, and from what I 
understand, these gliders have about a 25 percent better gas 
mileage. Is that accurate? And that's about 4,200 gallons a 
year of savings of fuel, less fuel being burned, which 
certainly would mean less pollution. Did they take that into 
account in their calculations? I couldn't follow that.
    Dr. Belzer. Well, I certainly couldn't either because I 
don't think the analysis is actually there. The regulatory 
impact analysis does not have that inside it. It has two or 
three paragraphs describing these glider provisions but does 
not have the analysis. There is the paragraph in the preamble 
to the final rule that contains the sum total of what EPA has 
disclosed with regard to its analysis, so I'm afraid that's all 
we have to go on. Everything else to me is just hearsay.
    Mr. Marshall. Also wanted to mention we had a new EPA 
pathway for sorghum oil to be turned into biodiesel. Would that 
have any impact on an EPA analysis of this situation if it was 
coming from sorghum oil rather than the traditional fuels?
    Dr. Belzer. Yes, I have no information or expertise on 
that, and I keep out of things in which I don't have expertise. 
I do recall, though, that the apparent comparison for gliders 
is based on the emissions standards as of roughly 2001, but a 
very large EPA rule on mandating ultralow sulfur diesel that 
was promulgated after those engines were made, so I would like 
to know whether the EPA estimate takes account of the emission 
reduction from the ultralow sulfur fuel rule, which had 
substantial benefits according to the EPA when they regulated 
it. That would be useful to know what the actual emissions are 
and to compare them with the fuel that is actually in use.
    Mr. Marshall. Thank you, Dr. Belzer. I yield back.
    Mr. Abraham. Thank you, Dr. Marshall.
    Mr. Palmer?
    Mr. Palmer. Thank you, Mr. Chairman. Continuing on that 
theme by Congressman Marshall, Dr. Belzer, in your testimony 
you discussed a range of consumer responses to no longer being 
able to purchase gliders. Can you elaborate a little bit more 
about those potential consumer responses and how the phase 2 
rule, even if it was hypothetically based on valid scientific 
studies--which I think there's been substantial doubt raised 
about that--would be counterproductive to what the regulators 
hoped to achieve in the first place?
    Dr. Belzer. Well, a common phenomenon with regulations that 
make major changes in, let's say, tailpipe emissions standards 
is that they do have effects on the market, and so there will 
often be what's called a pre-buy. The regulations will go into 
effect in a few years, and during that period of time, those 
who would be interested in purchasing trucks later will 
purchase them sooner in order to get in under the wire and do 
that. So we can predict that. I believe in EPA's phase 1 
greenhouse gas rule they took that into account. For some 
reason they didn't do that this time. But that is a known 
phenomenon.
    I've seen articles in the press suggesting that there are 
long waits now for vehicles, for heavy-duty trucks. Some of 
that is driven by the economy, but part of it is a predictable 
response to the high cost of the phase 2 standards. You should 
expect a lot of truck sales to occur prior to that in order to 
beat that. That happens normally. It happens in trucks; it 
happens in automobiles as well. It's a normal phenomenon. And 
that's why the Clean Air Act has--it has a provision in it 
requiring that the effective date for new standards to be 
delayed a few years so that manufacturers can catch up and be 
prepared to accommodate that.
    Mr. Palmer. What I find interesting about a lot of this in 
listening to the questions from my colleagues on the other side 
of the aisle bringing up these various problems from emissions 
is that, since 1980, our economy's expanded by probably close 
to 500 percent. Vehicle miles have gone up 98 percent. 
Population's up over 30 percent. The energy consumption's up 
over 30 percent. Emissions are down by over 50 percent.
    And a lot of the discussion here is around like asthma 
rates. Asthma rates are at record levels even though the air 
quality is substantially improved. So I think that, you know, 
the typical scare tactics from the left on these things that 
completely misses the real problem, a lot of it has to do with 
living conditions, household conditions. But I know that 
doesn't matter to a lot of people, the facts don't, so let me 
go on and ask Mr. Long a question.
    You know, in my district I have over 360 owner-operators. 
You made a statement that I'd like for you to elaborate on. You 
said there's not a shortage of drivers. That's not been our 
experience.
    Mr. Long. Sure. If you look at the driver turnover rate 
among large motor carriers, it's above 90 percent a year, so 
essentially they're almost having two drivers per position in 
the course of a year. We think that's the actual problem, that 
they're turning through drivers at an exceptional rate. We 
think steps can be taken by Congress to ensure that our career 
is one that is appealing and one that is sustainable rather 
than one where a young driver enters with no hope of making an 
actual career out of it because he doesn't make the money, he 
works in difficult conditions, and no one's really working to 
address either of those.
    So we think that rate could certainly come down among 
smaller fleets. The turnover rate is typically much lower. 
Drivers get paid better. They have more uniform schedules. 
They're home with their families more. And those are all steps 
that can be taken on a national level to certainly address the 
turnover problem.
    Mr. Palmer. The turnover problem, though, how does that 
impact the individual driver in terms of the more cost that 
gets added by regulations and particularly how it impacts with 
the glider rule?
    Mr. Long. Sure. Well, this is an example of an area where 
our members are being priced out of the industry. And let's 
keep in mind that our members owner-operators are the safest on 
the road by far.
    Mr. Palmer. Can you put that in context to the bottom line, 
you know, their take-home pay versus expense?
    Mr. Long. Yes, a lot of what we've been talking about in 
purchasing new trucks is--well, our members can save 25 percent 
on glider kits. That's not necessarily the discussion simply 
because they can't afford the new trucks. They're not really 
saving anything if they can't afford it in the first place. So 
for them glider is an affordable option and also improves their 
MPGs and it improves their reliability.
    So as far as bottom lines are concerned, our members run on 
the slimmest of margins, so expecting them to be capable of 
purchasing a new truck, it's just not realistic.
    Mr. Palmer. Mr. Chair, my time is expired. I will make a 
comment to you, though. You and I have talked about this issue 
of air quality and asthma----
    Mr. Abraham. Yes.
    Mr. Palmer. --and even CDC and others have indicated this 
length that has occasionally tried to be--they try to make, for 
instance, in a hearing like this is missing the mark, and I 
appreciate your indulgence. I yield back.
    Mr. Abraham. All right. Mr. McNerney, you have another----
    Dr. Miller. Excuse me. Could I clarify--I'm sorry--that 
comment on asthma?
    Mr. Abraham. Yes, sir.
    Dr. Miller. This is a common misperception I hear quite a 
bit. Nothing in these comments or my comments or in the--what I 
say as the basis of the EPA rules are based on air pollution 
causing asthma as a disease. Whatever causes asthma, I don't 
know. I'm not the expert. But the problem with the air 
pollution--and it is correct, as you're saying, the increase in 
asthma rates. The problem with air pollution is that it 
exacerbates asthma attacks in people who already have asthma 
for whatever reason.
    Mr. Palmer. I appreciate the gentleman making that 
clarification. I wasn't directing the comment to you. It was a 
comment made by one of my colleagues. But the fact of the 
matter is is that the problem with asthma has increased 
substantially even though air quality has improved remarkably. 
And you're right; we don't know the cause of asthma, and that's 
one of the conclusions that came out of a CDC report. But I 
thank the gentleman for his clarification.
    Mr. Abraham. Mr. McNerney?
    Mr. McNerney. Well, thank you. I appreciate the Chairman 
for allowing me another round of questions. It's quite 
remarkable that the Majority is questioning the, ``scientific 
integrity and validity,'' of the EPA's glider emissions study 
that was conducted at a nationally accredited laboratory while 
ignoring the study conducted by the Tennessee Tech University 
that formed the basis for the EPA's proposed repeal of the 
glider rule.
    Now, let me review a few facts. The Tennessee Tech study 
was funded by Fitzgerald Glider Kits and conducted in an 
unaccredited Fitzgerald laboratory. The study concluded that 
the remanufactured engines performed better or even on par or 
better than conventional engines emitting fewer hazardous 
chemicals. According to the Interim Dean of Tennessee Tech's 
College of Engineering, no credentialed engineering faculty 
members oversaw the testing, verified the data or calculations, 
or even wrote or reviewed the final report submitted to 
Fitzgerald. The Interim Dean also said the conclusion of the 
testing were sent to Representative Diane Black, including a, 
``far-fetched scientifically implausible claim that 
manufactured truck engines met or exceeded the performance of 
modern pollution controlled engines with regard to emissions.''
    The Principal Investigator of the study removed his name 
from the study, returned his portion of the Fitzgerald funding, 
and filed a scientific misconduct claimant with the university. 
Aside from the flawed testing, protocols, and unsupported 
conclusions, he was disappointed that the study had been used 
for political purposes and wrote, ``The misuse of results to 
support political opinions is a dangerous precedent that should 
worry all university employees.'' No final report has been 
issued, and the data from the study has not been publicly 
released. The General Counsel at Fitzgerald Glider Kits has 
argued that the data in the study are protected from disclosure 
by the university.
    Finally, the President of the Tennessee Tech wrote to the 
EPA, to Representative Black, and Fitzgerald telling them all 
that they should not reference the study in any way until the 
university's scientific misconduct investigation is complete. I 
would like to submit documents supporting my--what I've just 
said to the Majority for the record.
    Mr. Abraham. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. McNerney. Dr. Miller, I'm not a scientist--or I am a 
scientist. I forget sometimes. That's the scientific method. 
But would you trust the conclusions of a study like that?
    Dr. Miller. Let's just say if I was putting myself in the 
shoes of the State in an enforcement case and I had to go to 
court with that kind of study as proof, I'd be looking for a 
way to get out. You know, I kind of call it like the alien 
experiment. They took a probe, they stuck it in a smokestack, 
and they looked at it and they said, gosh, it's just as clean 
as a modern engine. That just doesn't pass muster.
    Mr. McNerney. Well, Dr. Miller, do you have any response to 
the fact that this study has been pivotal to the efforts by 
Fitzgerald Glider Kits, the glider industry, and the Trump 
Administration's EPA in trying to justify the rationale for 
repealing the glider provisions that limit productions of 
glider vehicles?
    Dr. Miller. Well, you know, it certainly made it into EPA's 
proposal. They cited it when proposing to reinstate the glider 
kit loophole. And it certainly made the press, so, yes, it got 
attention. We're talking about it today.
    Mr. McNerney. We are. Thank you, Mr. Chairman, I yield 
back.
    Mr. Abraham. Thank you. Dr. Babin?
    Mr. Babin. Thank you, Mr. Chairman. I appreciate it. I 
appreciate all you witnesses.
    I do have several questions here. I'd like to start with 
Mr. Long. In your experience with the trucking industry, how do 
you think gliders promote recycling and the smart use of fossil 
fuels?
    Mr. Long. Sure, thanks. Let me say thank you for your 
interest in small-business trucking issues. It's really greatly 
appreciated.
    Mr. Babin. Yes, sir. Proud to do it.
    Mr. Long. Yes, we've seen rates that gliders can recycle 
millions of pounds of steel each year. Our members who use them 
report that they've saved a mile per gallon, as much as a mile 
per gallon on fuel efficiency, which, over the course of a 
year, can translate to 3,000 gallons of diesel fuel. These are 
all issues that I think have gotten a little bit lost in the 
conversation about the overall public health impacts.
    But another one that I want to touch on is something that 
no one's really addressed at all and that's the taking owner-
operators off the road, pricing them out of the industry is 
taking the most experienced and safe drivers off the road. 
They're going to be replaced with young, inexperienced drivers 
who are certainly not going to be operating as safely, and you 
will probably see crash rates go up. So I think that's another 
public health consideration people need to take into account 
when talking about this. It's a much bigger picture than simply 
an EPA study and a Tennessee Tech study.
    Mr. Babin. Yes. Okay. Thank you. And then one more. Your 
story about Loren Hunt really resonated with me. It's a great 
example of innovation and the American dream, and I wanted to 
ask you. Is Loren's experience unique or do others in the 
trucking business experience similar challenges that he did?
    Mr. Long. Loren's story came to us a while ago. Since we 
started telling our members that we would be participating in 
this event and since we've been getting more engaged in the 
glider issue in general, we've been getting more and more 
stories like his.
    Mr. Babin. Yes.
    Mr. Long. We've had members just this week send us their 
cost estimates for refurbishing or repairing new trucks with 
the new technology and they let us know that it costs tens of 
thousands of dollars, but they're also unable to make any money 
off that truck because it's been in the garage so long. So 
we've been getting a slow stream of stories about this, and I 
anticipate because of today we'll probably be getting even 
more.
    Mr. Babin. Okay. All right. Thank you very much, Mr. Long.
    Mr. Long. Sure. Thank you.
    Mr. Babin. I appreciate it. Now, following that up about 
recycling, Dr. Belzer, what type of data or information was 
excluded in the EPA's phase 2 regulatory impact analysis that 
should have been considered to ensure its reliability when used 
to influence policy and regulations?
    Dr. Belzer. Well, in this context, EPA has guidance on the 
conduct of regulatory impact analyses just like OMB does. EPA's 
guidance directs the components of the agency to conduct a 
proper analysis of the incremental costs and benefits of every, 
you know, material provision of a rule. That's been in EPA's 
own guidance for a decade or two. They didn't follow that in 
this case, so what you have in the 1,100-page analysis you just 
don't have anything there. And I can't tell you why that's 
true. It's a provision that's a significant one. If it were not 
a significant one, we would not be talking about it. But it 
wasn't subjected to analysis that we would normally expect.
    If I had been working in the Office of Information and 
Regulatory Affairs in 2016, I would have advised the 
Administrator to return the rule because the analysis was 
significantly incomplete. They know how to do it correctly. 
There's no mystery about that. These are not complicated 
analytic questions.
    Mr. Babin. Okay. And then lastly, in your strawman RIA you 
state that as a result of the phase 2 final rule, the glider 
industry would be destroyed and employment losses are highly 
plausible. Can you give us an idea of how many American jobs 
will be lost as a result of this rule?
    Dr. Belzer. Actually, I think that's difficult to do, and 
there are problems with counting job losses in a regulatory 
impact analysis. That is a complicated matter in economics and 
one that--the way to go about this is actually to count them--
try to estimate them separately, not to count them as benefits 
and costs or one or the other. It is difficult to do because 
you don't know to what extent the people working in the glider 
manufacturing business, where they would go. That has to be 
estimated to see what happens to them. In a full employment 
economy, they would go elsewhere.
    Mr. Babin. Right.
    Dr. Belzer. In a less-than-full employment economy, we 
don't know what's going to happen to them. And many of these 
jobs are located in rural areas where the alternatives may not 
be as rich as they are, let's say, in New England.
    Mr. Babin. Well, thank you very much. I appreciate it. And 
I yield back, Mr. Chairman.
    Mr. Abraham. Thank you, Dr. Babin.
    Mr. Weber?
    Mr. Weber. And I don't know where to start. Don't start? 
Okay. Mr. Chairman, I yield back. At least I'm not a scientist. 
I'm just saying.
    I have a hypothetical scenario, which I want each of you 
all to answer yes or no to. It's a question that's pretty 
simple. Let's say a cell phone company wants to test which 
phone produces data faster, an Apple iPhone or a Samsung 
Galaxy. Samsung reaches out to the phone company and says we 
can help you figure out which one's faster. Samsung will supply 
you with two iPhones and two Galaxies. We suggest you process 
this particular data and complete the test within this time 
frame.
    The cell phone company, without contacting Apple, okay, 
conducts the test in accordance with Samsung's suggestions, 
finding, surprise of all surprises, that the Samsung is 10 
times faster. The cell phone company then markets to you, the 
consumer, that the Samsung Galaxy is hereby declared 10 times 
faster than the Apple iPhone according to that study. If you 
were made aware of the circumstances of that cell phone study, 
would you trust that cell company's marketing statement that 
the Samsung was 10 times faster than the iPhone? Ms.--is it 
Tsang?
    Ms. Tsang. Yes, Congressman.
    Mr. Weber. Would you trust that study?
    Ms. Tsang. I can only speak to the legal requirements 
related to the rulemaking unfortunately.
    Mr. Weber. Are you also a scientist?
    Ms. Tsang. I am, not.
    Mr. Weber. I am just kidding. No. So Mr. Long?
    Mr. Long. No.
    Mr. Weber. Dr. Miller?
    Dr. Miller. On your assumption that that's what EPA did, I 
would say no, that would be wrong.
    Mr. Weber. All right.
    Dr. Miller. EPA did not do that.
    Mr. Weber. Do you carry an iPhone or a Samsung?
    Dr. Miller. I've done both. Actually, I do have both.
    Mr. Weber. Okay. Dr. Belzer?
    Dr. Belzer. I tend to distrust all marketing, so I would 
treat this claim the same way I'd treat all other claims.
    Mr. Weber. You say you can or can't?
    Dr. Belzer. I would distrust all of it.
    Mr. Weber. All marketing?
    Dr. Belzer. All marketing claims----
    Mr. Weber. Okay.
    Dr. Belzer. --in the same way that I often have a skeptical 
regard to preambles of regulation----
    Mr. Weber. So that means your wife tells you what to buy.
    Dr. Belzer. No, not on technology.
    Mr. Weber. No? Okay. I'm just checking. Well, look, it 
seems very interesting to me. We've got older--by the way, Mr. 
Long, you'd be interested in this. I owned an air-conditioning 
company for 35 years, sold it a year ago. We dealt with the EPA 
on refrigerant requirements and all kinds of stuff, had trucks 
and the whole nine yards. Some friends of mine at church got me 
into the hotshot business. I ran a trucking company for a short 
time until I ran for the Texas Legislature, and then I couldn't 
keep building it. So I've been down those roads. I've been 
TxDOT'ed, USDOT'ed, and everything else, so I have trucking 
industry experience. Does this set a precedent where no older 
engines are able to be used for anything, antique cars? Are we 
afraid of that? What do you think, Mr. Long?
    Mr. Long. No, because drivers will just continue to use 
their current engines or they'll buy used trucks with older 
engines as well.
    Mr. Weber. Well, sure. Shouldn't we really be reluctant to 
change what small-business owners are allowed to do--of which I 
was one of--allowed to do without knowing that we for sure have 
enough reliable information/studies? Shouldn't we really be 
reluctant to change that?
    Mr. Long. Absolutely, and I think our members would say 
that accounts for all trucking policies, not just this one.
    Mr. Weber. Dr. Miller, would you agree that we absolutely 
need enough concise concrete evidence before we change this?
    Dr. Miller. I think we have it. And to your earlier 
question about do you think it affects antique car owners? No, 
it doesn't. Those are old cars. There's no question about that. 
We're talking about----
    Mr. Weber. But they use old engines.
    Dr. Miller. Old cars with old engines.
    Mr. Weber. And these are old engines that go in new trucks. 
And if you read----
    Dr. Miller. Right, but those are the first certificates of 
ownership, titles transferred for those gliders. You don't have 
that with an antique car. It wouldn't be covered.
    Mr. Weber. Well, if you read what the EPA was claiming--
and, by the way, I was on the Environmental Reg Committee there 
in Texas before I got demoted to Congress, and Gary Palmer was 
right. We don't know what causes asthma, but we have reduced 
our NOx and greenhouse gases a lot, and we have an increase in 
asthma. So are we maybe too worried without that proof I'm 
talking about?
    So what is it--how many more studies should we go through? 
Does that include an economic impact study in your opinion, Dr. 
Miller? Should we have an economic impact study? I know you all 
talked about it's hard or maybe Dr. Belzer said it's hard to 
make that calculation. But before we interrupt that business 
practice, shouldn't we have a study in that regard as well?
    Dr. Miller. I would assert that we have that information. 
We have the cost of essentially post-2010 engine emissions 
control, and that's from 2000.
    Mr. Weber. Yes.
    Dr. Miller. We have that cost, which is essentially what 
presumably one could use as a basis for a cost of--to the 
glider industry. It's about $670 per engine. People may think 
that's low, so double it, triplet, you know, say it's about 
$2,000. That's fine because if you're interested in small 
businesses, if we allowed that amount of emissions from glider 
kits that could be controlled for less than $2,000, in my 
region we're already controlling small businesses that start at 
$2,000 per ton of----
    Mr. Weber. Where's your region?
    Dr. Miller. It's the Northeast, so we're talking New York, 
New Jersey----
    Mr. Weber. Okay.
    Dr. Miller. --and apparently the rich folks of New 
England--I don't know. So----
    Mr. Weber. I notice you're not wearing a bowtie and he is.
    Dr. Miller. I'm actually from Texas----
    Mr. Weber. I got you.
    Dr. Miller. But putting that aside, these are cost savings, 
I will say, for folks who are using pre-emission control. I 
don't disagree with that. They're simpler engines. They're 
dirtier engines, they're simpler engines, they're easier to 
maintain, but those cost savings aren't absolute. Those are 
cost shifts. They are cost shifts to public health impacts. You 
talk about the incidence of asthma going up but pollution going 
down. I take that as there are more people with asthma, so it's 
more important to address the pollution that's affecting those 
people. So I take that as even more of a reason to move 
forward.
    On the small-business side, we're already controlling or 
asking small businesses in our region to control at costs well 
above what it looks like it would cost to bring glider kits up 
to modern pollution standards. That's going to have impacts on 
people's jobs. We have to meet these standards to protect 
public health.
    Mr. Weber. Well, we're going to disagree about that.
    Mr. Chairman, I'm well over my time, so thank you very much 
for your indulgence.
    Mr. Abraham. You're welcome.
    I thank the witnesses for their valuable testimonies and 
Members for their questions.
    The record will remain open for two weeks for additional 
comments and written questions from Members. This hearing is 
adjourned.
    [Whereupon, at 11:45 a.m., the Subcommittees were 
adjourned.

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Dr. Paul J. Miller

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record




               Letter submitted by Ranking Member Johnson
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               


                                 <all>
</pre></body></html>
